Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   TEMPORARY MEDICARE
  APPROVED DRUG DISCOUNT 

  CARD: ANALYSIS OF DRUG 

          PRICES





                    Daniel R. Levinson

                    Inspector General 


                      October 2005

                     OEI-05-05-00020

                    Office of Inspector General
                                     http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations in order to reduce waste, abuse, and mismanagement and to promote economy
and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program evaluations
(called inspections) that focus on issues of concern to HHS, Congress, and the public. The
findings and recommendations contained in the inspections generate rapid, accurate, and up-to
date information on the efficiency, vulnerability, and effectiveness of departmental programs.
OEI also oversees State Medicaid Fraud Control Units which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG’s internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
Δ   E X E C U T I V E                                    S U M M A R Y                                               



                  OBJECTIVE
                  To determine the extent to which prices offered by Medicare general
                  drug card sponsors fluctuated between June and December 2004.


                  BACKGROUND
                  The Medicare Prescription Drug, Improvement, and Modernization Act
                  of 2003 (MMA), Public Law 108-173, added an outpatient prescription
                  drug benefit to Medicare under Part D. As part of the MMA, Congress
                  also enacted the temporary Medicare Prescription Drug Discount Card
                  and Transitional Assistance Program. This voluntary program
                  attempts to reduce prescription drug costs for seniors before the Centers
                  for Medicare & Medicaid Services (CMS) implements the Medicare drug
                  benefit in January 2006.

                  CMS administers this voluntary program through approved drug card
                  sponsors. Sponsors are private companies, including health insurance
                  companies, chain pharmacies, and managed care firms.

                  To enable Medicare beneficiaries to select a drug discount card, drug
                  card sponsors provide pricing and pharmacy data to a CMS contractor
                  for display on CMS’s Medicare Web site
                  (www.medicare.gov/AssistancePrograms). CMS contracted with a
                  program safeguard contractor to monitor drug card sponsors’ pricing
                  information to identify “bait and switch” activities. In addition, the
                  Office of Inspector General assured CMS that it would monitor prices.

                  We reviewed weekly drug card pricing files submitted by general drug
                  card sponsors for the period June 21 through December 27, 2004. Our
                  final analysis included approximately six million observations.


                  FINDINGS
                  Two-thirds of drug prices did not fluctuate between June and
                  December 2004. Two-thirds of the six million drug prices submitted by
                  drug card sponsors did not change between June 21 and
                  December 27, 2004.




OEI-05-05-00020   T E M P O R A R Y M E D I C A R E - A P P R O V E D D R U G D I S C O U N T C A R D : A N A LY S I S   OF   DRUG PRICES   i
E X E C U T I V E                        S U           M M A R Y


                   Among the one-third of drug prices that did fluctuate, changes were
                   infrequent and included both increases and decreases. Of the drug
                   prices that did fluctuate, only about 1 percent of the prices changed in
                   most weeks. Seventy-three percent of the prices changed two times or
                   less between June and December 2004.
                   Of the prices that changed, the average median increase in price was
                   approximately 7 percent in any given week. The median price decrease
                   had more variation. In 10 of the 27 periods examined, the median
                   decrease in prices exceeded 15 percent.

                   Most drug card sponsors exhibited similar patterns of minimal
                   fluctuation in prices.


                   SUMMARY
                   Based on these findings, we do not recommend that CMS take any
                   action at this time.




 OEI-05-05-00020   T E M P O R A R Y M E D I C A R E - A P P R O V E D D R U G D I S C O U N T C A R D : A N A LY S I S   OF   DRUG PRICES   ii
Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY ....................................
i


         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 6

                   Two-thirds of prices did not change . . . . . . . . . . . . . . . . . . . . . . . . . 6 


                   Increases and decreases were infrequent. . . . . . . . . . . . . . . . . . . . . 6 



         S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 



         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

Δ   I N T R O D U C T I O N                                                    



                  OBJECTIVE
                  To determine the extent to which prices offered by Medicare general
                  drug card sponsors fluctuated between June and December 2004.


                  BACKGROUND
                  Medicare Prescription Drug Discount Card and Transitional Assistance
                  Program
                  The Medicare Prescription Drug, Improvement, and Modernization Act
                  of 2003 (MMA), Public Law 108-173, added an outpatient prescription
                  drug benefit to Medicare under Part D. Effective January 2006, all
                  Medicare beneficiaries will be able to enroll in private plans that will
                  cover a percentage of their drug costs. Medicare will provide assistance
                  with premiums and cost sharing to an estimated 11 million low-income
                  beneficiaries.1 Estimates of the Part D drug benefit cost range from
                  $47 billion to $58.9 billion for fiscal year 2006.2
                  As part of the MMA, Congress also enacted the temporary Medicare
                  Prescription Drug Discount Card (drug card program). This voluntary
                  program attempts to reduce prescription drug costs for seniors before
                  the Centers for Medicare & Medicaid Services (CMS) implements the
                  Medicare drug benefit in January 2006. CMS reported in December
                  2004 that nearly six million beneficiaries had enrolled in the drug card
                  program.3
                  CMS administers this voluntary program through approved drug card
                  sponsors. Sponsors are private companies, including health insurance
                  companies, chain pharmacies, and managed care firms. To be approved
                  as a drug card sponsor, these companies must meet certain
                  requirements, including:

                          • 	 Organizational experience, including processing pharmacy
                              claims at the point of sale;

                          • 	 Ability to provide negotiated prices;

                          • 	 Capacity to manage the eligibility and enrollment process; and

                          • 	 Agreement to provide drug-pricing data to CMS.

                  There are two classes of drug card sponsors. General card sponsors
                  offer plans to all eligible Medicare beneficiaries, while exclusive card
                  sponsors administer drug cards for those Medicare beneficiaries
                  enrolled in managed care health plans.

OEI-05-05-00020   T E M P O R A R Y M E D I C A R E - A P P R O V E D D R U G D I S C O U N T C A R D : A N A LY S I S   OF   DRUG PRICES   1
I N T R O D        U C T             I O N


                    Drug card sponsors determine the discounts and other features of the
                    cards they offer to beneficiaries. Drug card discounts vary among cards
                    and may vary within a card program. Drug card sponsors can offer
                    discounts on all drugs allowed by CMS or may cover only a select list of
                    drugs (i.e., a formulary). This formulary may vary throughout the life of
                    the program, as can the discounted prices for drugs.

                    In addition, drug card sponsors may charge an annual enrollment fee of
                    up to $30 or may offer a card without an enrollment fee. Beneficiaries
                    may enroll in only one Medicare-approved card at a time.
                    Drug Discount Card Pricing Data
                    To enable Medicare beneficiaries to select a drug discount card,
                    sponsors provide pricing and pharmacy data to Destination Rx, a CMS
                    contractor, for display on CMS’s Medicare Web site
                    (www.medicare.gov/AssistancePrograms). Sponsors submit weekly
                    pricing files to Destination Rx, which uses these data to display
                    information about prescription drug pricing at the pharmacy level by
                    approved drug card sponsors.

                    For each drug discount card, a sponsor can submit multiple pricing files.
                    These pricing files allow for variation within drug discount card
                    programs that can account for differences in pricing based on income
                    levels, geography, or networks of pharmacies. For example, a drug card
                    sponsor can submit one pricing file for very low-income beneficiaries
                    and another for all other beneficiaries. A drug discount card sponsor
                    can also submit a pricing file that is specific to a network of pharmacies.

                    Drug card sponsors can change their prices at any point during the
                    program. However, if any of the changes are increases that exceed a
                    certain threshold, sponsors must explain these increases to CMS.
                    Sponsors report pricing data using the Food and Drug Administration’s
                    National Drug Code (NDC). The NDC is a unique identifier that
                    contains information about the manufacturer, the product strength and
                    dosage, and the package size of each drug product.
                    Oversight
                    On August 27, 2004, CMS announced a contract with Integriguard, a
                    Program Safeguard Contractor (PSC), to monitor activities associated
                    with the drug cards. According to CMS, a “critical task of this PSC is a
                    weekly assessment of the sponsor’s drug pricing information to identify
                    ‘bait and switch’ activities.”4 In addition, the Office of Inspector General
                    (OIG) assured CMS that it would monitor drug prices.


 OEI-05-05-00020    T E M P O R A R Y M E D I C A R E - A P P R O V E D D R U G D I S C O U N T C A R D : A N A LY S I S   OF   DRUG PRICES   2
I N T R O D        U C T             I O N


                    Concurrent OIG Inspections
                    OIG has conducted two additional studies related to the drug card
                    program. One study, Assessment of Sponsors’ Materials Under the
                    Medicare-Approved Drug Discount Card Program (OEI-05-04-00190),
                    assessed the extent to which drug card sponsors’ materials promote
                    informed choice for beneficiaries. The other study, Medicare-Approved
                    Drug Discount Card: Beneficiaries’ Awareness and Use of Information
                    Resources (OEI-05-04-00200), assessed the extent of beneficiaries’
                    awareness and use of information resources to decide whether to enroll
                    in the drug card program and navigate the enrollment process.


                    METHODOLOGY
                    Data Collection
                    We obtained from CMS weekly drug card pricing files submitted by 67
                    general drug card sponsors for the period June 21 through
                    December 27, 2004. While the drug card program began in May 2004,
                    we chose June 21, 2004, as the beginning of our review period due to
                    initial problems with the pricing data identified by CMS during early
                    implementation. These pricing files contain the raw data for CMS’s
                    price comparison Web site, which is designed to provide beneficiaries
                    with information they need to compare drug prices among drug card
                    sponsors.

                    We created a data file containing all weekly prices for every pricing file
                    submitted by general drug card sponsors. This file contains
                    approximately 10 million unique combinations of drug card sponsors,
                    pricing files, and NDCs. See Table 1 for additional information
                    regarding the weekly drug card pricing files.


                   TABLE 1: Drug Card Pricing Files for Review Period
                   Number of
                   Sponsors                                Number of Pricing Files                                         Number of Different Prices

                   67                                                                     775                                                 9,970,123

                                                    Range per sponsor: 2 to 30                           Range per pricing file: 970 to 87,518

                                                            Mean per sponsor: 12                                      Mean per pricing file: 12,865




 OEI-05-05-00020    T E M P O R A R Y M E D I C A R E - A P P R O V E D D R U G D I S C O U N T C A R D : A N A LY S I S   OF   DRUG PRICES               3
I N T R O D        U C T             I O N


                    We excluded from the initial data several types of information that were
                    not appropriate for our review. We removed certain classes of drugs
                    from our data file, such as fertility drugs and drugs used for cosmetic
                    purposes, which are excluded from the drug card program by statute.5
                    Drug card discounts for these drugs are not available to beneficiaries.
                    We also eliminated pricing files specific to long-term care pharmacies,
                    Indian Tribe and Tribal Organizations and Urban Indian Organizations
                    pharmacies, and pharmacies serving territories because these
                    pharmacies serve unique populations.6 In addition, we dropped one
                    drug card sponsor after we determined that it was not enrolling
                    beneficiaries. This drug card sponsor submitted pricing information for
                    only the first 2 weeks of our review.

                    We further narrowed our review to include only drugs that were
                    purchased by beneficiaries during the review period. Out of the
                    universe of approximately 69,000 NDCs, we included data for only the
                    22,036 unique NDCs for which drug card sponsors reported prescription
                    sales to enrolled beneficiaries between June and November 2004.

                    Finally, we eliminated records that did not have enough data for
                    analysis. We included only those unique combinations of drug card
                    sponsor, pricing file, and NDC for which 2 weeks or more of price data
                    were available for analysis. This reduced our final analysis file of drug
                    card sponsors, pricing files, and NDCs to approximately six million. See
                    Table 2 for more information regarding the pricing files used in our
                    analysis.


                   TABLE 2: Drug Card Pricing Files Reviewed: After Exclusions of
                   Drugs, Pricing Files, and Sponsor
                   Number of
                   Sponsors                                Number of Pricing Files                                          Number of Different Prices

                   65                                                                     742                                                 5,999,314

                                                    Range per sponsor: 2 to 30                             Range per pricing file: 27 to 15,340

                                                            Mean per sponsor: 11                                           Mean per pricing file: 8,085




                    We determined that the pricing information reported by drug card
                    sponsors was sufficiently reliable to achieve the objective of this report.
                    To assess the reliability of the data, we confirmed that they included the

 OEI-05-05-00020    T E M P O R A R Y M E D I C A R E - A P P R O V E D D R U G D I S C O U N T C A R D : A N A LY S I S   OF   DRUG PRICES               4
I N T R O D        U C T             I O N


                    elements needed to perform our analysis, used pricing files upon which
                    CMS and its contractor performed quality checks prior to posting them
                    on the Medicare Web site, and worked with CMS staff to identify any
                    data problems.
                    Analysis
                    We used several methods to examine prices submitted by drug card
                    sponsors during the 28 weeks reviewed. We identified the proportion of
                    all drug card prices with no change at all during the review period. We
                    calculated the percentage of prices that changed in each week and the
                    percentage of these changes that were increases or decreases. In
                    addition, we examined the data by drug card sponsor to ascertain
                    whether specific sponsors were responsible for certain price changes.

                    We also calculated a Stochastic Oscillator for the last reported price for
                    each combination of drug card sponsor, pricing file, and NDC. A
                    Stochastic Oscillator shows the location of the last reported price
                    relative to the high/low range over the 28 weeks reviewed. A Stochastic
                    Oscillator of 100 means that the last reported price is at its highest level
                    while a Stochastic Oscillator of 0 means that the last reported price is at
                    its lowest level. A score between 0 and 100 means that the last reported
                    price is between the lowest and highest price.

                    Calculations are based on the total available data, excluding missing
                    prices. While the final data set contains approximately six million
                    observations, the exact number of sponsors, pricing files, and NDCs
                    with reported information might vary from week to week.

                    We refer to comparisons between weeks as periods. While there are
                    28 weeks of data in the review period, there are only 27 periods.
                    Scope
                    It is important to note that this inspection only examines drug card
                    sponsors’ self-reported data as received by CMS staff through CMS’s
                    contractor. We did not attempt to determine whether beneficiaries were
                    able to receive the prices posted on the Web site by the drug card
                    sponsors at their local pharmacies. In addition, we do not generalize
                    our results to all prices over the duration of the drug card program.

                    This inspection was conducted in accordance with the “Quality
                    Standards for Inspections” issued by the President’s Council on
                    Integrity and Efficiency.




 OEI-05-05-00020    T E M P O R A R Y M E D I C A R E - A P P R O V E D D R U G D I S C O U N T C A R D : A N A LY S I S   OF   DRUG PRICES   5
Δ     F I N D I N G S 




    Two-thirds of drug prices did not fluctuate          Two-thirds of drug prices submitted
            between June and December 2004               by drug card sponsors did not
                                                         change at all between June 21 and
                    December 27, 2004. Of the six million prices submitted by drug card
                    sponsors, approximately four million did not change over the 28-week
                    period. See Chart 1 for an overall analysis of price change.


       CHART 1
 Percentage of
      prices that
       changed,
June–December
            2004                                                                                                                   Price Change
                                                                                                                                        33%




                                                        No Change
                                                           67%




                    Source: OIG analysis of June–December 2004 Medicare drug card sponsors’ pricing files, 2005




     Among the one-third of drug prices that did              Of the prices that fluctuated, only
                                                              a small percentage changed in
fluctuate, changes were infrequent and included
                                                              any given week
                  both increases and decreases
                                                              Except during two periods,
                    drug card sponsors submitted changes for about 1 percent of all prices.
                    For the two periods that are exceptions, drug card sponsors submitted a
                    larger percentage of price changes compared to the other 25 periods.
                    See Chart 2 for analysis of price changes by period.




 OEI-05-05-00020    T E M P O R A R Y M E D I C A R E - A P P R O V E D D R U G D I S C O U N T C A R D : A N A LY S I S   OF   DRUG PRICES       6
F          I N D I N G          S



CHART 2
Weekly pricing files: Percentage of drug price
changes by period

                 25%




                 20%




                 15%
    Percentage




                 10%




                 5%




                 0%
                 Pe 10

                 Pe 11

                 Pe 12

                 Pe 13

                 Pe 14

                 Pe 15

                 Pe 16

                 Pe 17

                 Pe 18

                 Pe 19

                 Pe 20

                 Pe 21

                 Pe 22

                 Pe 23

                 Pe 24

                 Pe 25

                 Pe 26

                          27
                  Pe 1

                  Pe 2

                  Pe 3

                  Pe 4

                  Pe 5

                  Pe 6

                  Pe 7

                  Pe 8
                 Pe d 9
                         d

                         d

                         d

                         d

                         d

                         d

                         d

                         d



                       d

                       d

                       d

                       d

                       d

                       d

                       d

                       d

                       d

                       d

                       d

                       d

                       d

                       d

                       d

                       d

                       d

                       d
                     rio

                     rio

                     rio

                     rio

                     rio

                     rio

                     rio

                     rio

                     rio
                   rio

                   rio



                   rio

                   rio



                   rio

                   rio




                   rio




                   rio




                   rio

                   rio
                   rio




                   rio




                   rio

                   rio



                   rio

                   rio



                   rio

                   rio
                  Pe




                                                                                     Period


Source: OIG analysis of June–December 2004 Medicare drug card sponsors’ pricing files, 2005




                               More prices changed during period 3 (between weeks 3 and 4) than during any
                               other period. Drug card sponsors submitted a larger percentage of
                               increases and decreases between weeks 3 and 4 (July 5 and
                               July 12, 2004) than between any of the other weeks. Overall, drug card
                               sponsors increased about 11 percent of all prices between these 2 weeks
                               and decreased about 12 percent of all prices.

                               Analyzing by sponsor, we found that of the 60 sponsors with prices
                               posted on the price comparison Web site during weeks 3 and 4,
                               18 sponsors were responsible for 95 percent of all the price changes.
                               Each of these 18 sponsors increased between 14 and 22 percent of their
                               prices, while the remaining 42 sponsors increased between 0 and
                               3 percent of their prices. For the price decreases, these same



         OEI-05-05-00020       T E M P O R A R Y M E D I C A R E - A P P R O V E D D R U G D I S C O U N T C A R D : A N A LY S I S   OF   DRUG PRICES   7
F   I N D I N G 
S


                      18 sponsors decreased between 17 and 56 percent of their prices, while
                      37 out of the 42 sponsors decreased less than 1 percent of their prices.

                      These large price fluctuations only occurred once throughout the study
                      period: during period 3, which was relatively early in the program. It is
                      possible that some of the large fluctuations are due to changes in prices
                      negotiated by pharmacy benefit mangers. For example, of the 18 drug
                      card sponsors responsible for 95 percent of the price changes, 16 share
                      the same pharmacy benefit manager.
                      About 4 percent of the prices changed during period 16. Two drug card
                      sponsors were responsible for 62 percent of all the prices that changed
                      between weeks 16 and 17, October 4 and October 11, 2004. These two
                      drug card sponsors submitted multiple pricing files for low-income and
                      all other beneficiaries, with up to seven specific pricing files for
                      pharmacy chain contracts. The changes predominantly appear in two
                      pricing files that are related to specific pharmacy chain contracts and do
                      not occur across all price files submitted by these two sponsors.
                      Of the prices that fluctuated, most changed only a few times
                      Of the approximately two million prices that drug card sponsors
                      submitted that changed, 53 percent had only one change between June
                      and December 2004. Another 20 percent of prices had two changes
                      during this 28-week period. Only 147 prices out of 2 million had 10 or
                      more changes detected between June and December 2004. Over the
                      28 weeks, some prices increased compared to the previous week and
                      then decreased in the following week.
                      Of the prices that fluctuated, some increased, while at the same time
                      others decreased
                      Among prices that changed, the increase in price ranged from 4 to
                      21 percent with an average median increase of 7 percent in any given
                      period. In 17 out of 27 periods examined, the median reported increase
                      in prices was approximately 7 percent or less. In only two periods were
                      the median reported increases greater than 10 percent.

                      The median price decreases were more varied. In 10 of the 27 periods
                      examined, the median decrease in prices exceeded 15 percent. In 5 of
                      the 27 periods, the median decrease in prices was less than 5 percent.
                      See Chart 3 for the median percentage price increases and decreases
                      between June and December 2004.




    OEI-05-05-00020   T E M P O R A R Y M E D I C A R E - A P P R O V E D D R U G D I S C O U N T C A R D : A N A LY S I S   OF   DRUG PRICES   8
F         I N D I N G                      S



    CHART 3
    Analysis of weekly price changes: Median
    percentage of increases and decreases by
    period




                          30




                          25
     Percentage Change




                          20


                                                                                                                                                                     Median
                          15                                                                                                                                         Increase
                                                                                                                                                                     Median
                                                                                                                                                                     Decrease
                          10




                           5




                           0
                                ri 10
                                ri 11
                                ri 12
                                ri 13
                                ri 14
                                ri 15
                                ri 16
                                ri 17
                                ri 18
                                ri 19
                                ri 20
                                ri 21
                                ri 22
                                ri 23
                                ri 24
                                ri 25
                                rio 26
                                      27
                                  ri 1
                                  ri 2
                                  ri 3
                                  ri 4
                                  ri 5
                                  ri 6
                                  ri 7
                                       8
                                rio 9
                               Pe d
                               Pe od
                               Pe od
                               Pe od
                               Pe od
                               Pe od
                               Pe od
                               Pe od
                              Pe riod
                              Pe d
                              Pe od
                              Pe od
                              Pe od
                              Pe od
                              Pe od
                              Pe od
                              Pe od
                              Pe od
                              Pe od
                              Pe od
                              Pe od
                              Pe od
                              Pe od
                              Pe od
                              Pe od
                              Pe od
                                    d
                          rio
                         Pe




                                                                            Period

    Source: OIG analysis of June–December 2004 Medicare drug card sponsors’ pricing files, 2005




                                           While 67 percent of the prices remained the same throughout the 28
                                           weeks we reviewed, 20 percent of the last reported prices were at their
                                           highest reported price. Eleven percent were at their lowest reported
                                           price. The remaining 1 percent were between the highest and lowest
                                           price reported between June and December 2004.*




                                           * Numbers do not add up to 100 percent due to rounding.




                         OEI-05-05-00020   T E M P O R A R Y M E D I C A R E - A P P R O V E D D R U G D I S C O U N T C A R D : A N A LY S I S   OF   DRUG PRICES              9
F   I N D I N G        S


                      Most drug card sponsors exhibit similar patterns of minimal fluctuation in
                      prices
                      Forty-four of the sixty-five drug card sponsors submitted price changes
                      —both increases and decreases—for 2 percent or less of all their prices.
                      Reported prices changed by drug card sponsors ranged from a low of
                      0.5 percent of their prices to a high of 6 percent. At the high end of the
                      range, two drug card sponsors increased or decreased about 6 percent of
                      their prices within the entire review period of June 21 and
                      December 27, 2004.

                      Many of the drug card sponsors that exhibited similar patterns of
                      changes in prices were affiliated with the same pharmacy benefit
                      managers. For example, 16 different drug card sponsors affiliated with
                      the same pharmacy benefit manager each changed 2.2 percent of their
                      prices. It is possible that these changes may be due to changes in the
                      pharmacy benefit manager’s negotiated price rather than changes made
                      by individual drug card sponsors.




    OEI-05-05-00020   T E M P O R A R Y M E D I C A R E - A P P R O V E D D R U G D I S C O U N T C A R D : A N A LY S I S   OF   DRUG PRICES   10
Δ   S U M M A R Y                             




                  The objective of this inspection was to determine the extent to which
                  prices offered by Medicare drug card sponsors fluctuated between
                  June and December 2004. We found that two-thirds of the six million
                  prices submitted by drug card sponsors did not change at all during the
                  study period. Among the one-third of prices that did change, only about
                  1 percent changed in most weeks. Further, most drug card sponsors
                  exhibited similar patterns of minimal fluctuation in prices. Based on
                  these findings, we do not recommend that CMS take any action at this
                  time.




OEI-05-05-00020   T E M P O R A R Y M E D I C A R E - A P P R O V E D D R U G D I S C O U N T C A R D : A N A LY S I S   OF   DRUG PRICES   11
Δ   E N D N O T E S                                 





                  1	   Centers for Medicare & Medicaid Services, “Medicare Fact Sheet: Final
                       Rules Implementing the New Medicare Law: A New Prescription Drug
                       Benefit for All Medicare Beneficiaries, Improvements to Medicare
                       Health Plans and Establishing Options for Retirees,” January 21, 2005,
                       p. 3.

                  2	   Congressional Budget Office, “The Budget and Economic Outlook:
                       Fiscal Years 2006 to 2015,” January 2005, p. 55. Also, Centers for
                       Medicare & Medicaid Services, “Releasing the HHS Proposed Budget
                       for FY 2006,” February 7, 2005.

                  3	   Centers for Medicare & Medicaid Services, “Fact Sheet: Medicare
                       Modernization Benefits in the First Year,” December 8, 2004.

                  4    Centers for Medicare & Medicaid Services’ Press Release, “CMS
                       Strengthens Efforts to Reduce Fraud and Abuse in Medicare and
                       Medicaid,” August 27, 2004.

                  5    MMA, Title I Sec. 101, Subpart 5, Sec. 1860D-41 (a)(2) references
                       exclusions at Title I, Sec. 101, Subpart1, Section 1860D-2 (e) (2), which
                       references exclusions in the Social Security Act, Title XIX, Sec.
                       1927(d)(2) except (E) and 1927(d)(3).

                  6    Centers for Medicare & Medicaid Services Web site, “Overview” of
                       Medicare Prescription Drug Discount Card and Transitional Assistance
                       Program, http://www.cms.hhs.gov/discountdrugs/overview.asp, accessed
                       September 16, 2004.




OEI-05-05-00020   T E M P O R A R Y M E D I C A R E - A P P R O V E D D R U G D I S C O U N T C A R D : A N A LY S I S   OF   DRUG PRICES   12
Δ   A C K N O W L E D G M E N T S                                                                          




                  This report was prepared under the direction of William C. Moran,
                  Regional Inspector General for Evaluation and Inspections in the
                  Chicago regional office, and Ann Maxwell, Assistant Regional Inspector
                  General. Other principal Office of Evaluation and Inspections staff who
                  contributed include:

                  Thomas Komaniecki, Project Leader
                  Laura Torres, Program Analyst

                  Linda Boone Abbott, Program Specialist

                  Tricia Davis, Director, Medicare and Medicaid Branch



                  Technical Assistance

                  Barbara Tedesco, Mathematical Statistician

                  Scott Horning, Program Analyst




OEI-05-05-00020   T E M P O R A R Y M E D I C A R E - A P P R O V E D D R U G D I S C O U N T C A R D : A N A LY S I S   OF   DRUG PRICES   13
